Nos. 19-431 & 19-454

 

IN THE
Supreme Court of the United States

THE LITTLE SISTERS OF THE POOR SAINTS PETER AND PAUL HOME, Petitioner,
Vv.

COMMONWEALTH OF PENNSYLVANIA AND THE STATE OF NEW JERSEY, ET AL.
Respondents

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL., Petitioners
Vv.

COMMONWEALTH OF PENNSYLVANIA AND THE STATE OF NEW JERSEY, ET AL.
Respondents

On Writs of Certiorari to the
United States Court of Appeals for
the Third Circuit

Brief of the Knights of Columbus
as amicus curiae in support of Petitioners
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,983 words, excluding the parts of the document that are exempted by the Supreme

Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 9, 2020.

Colin Casey fm

Wilson-Epes Printing Co., Inc.
